                                                 NATIONAL SCIENCE FOLNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: A05040015                                                                    Page 1 of 1



         An allegation was received that the current and pending support declaration of a proposal
         submitted to NSF' failed to include a complete listing of pending proposals.2

         The subject was contacted and confirmed that a pending proposal was not included through an
         oversight. Specifically, the pending award was part of a collaboration that afforded the subject
         only travel funds, and not "support for my own research." The subject concluded that it therefore
         need not be included. However, the instructions given in the NSF Grant Proposal Guide for
         completion of the current and pending support declaration are explicit, and this pending proposal
         should have been listed. The subject, in hindsight, agrees. We wrote to the subject to remind her
         to list all current and pending support on future proposals.

         No issues remain unresolved. Accordingly, this case is closed.




         2
          ' Redacted.
             Redacted.



NSF OIG Form 2 (1 1/02)
